        OFFICE OF

   INSPECTOR GENERAL





Semiannual Report to Congress

 October 1, 2002 – March 31, 2003



    Federal Election Commission
    999 E Street, N.W., Suite 940
      Washington, DC 20463


            May 2003

                                    TABLE OF CONTENTS




EXECUTIVE SUMMARY...............................................................................             1


FEDERAL ELECTION COMMISSION.........................................................                         5


AUDIT..…………………………………………………………………………………………….                                                                  7


AUDIT FOLLOW-UP………………………………………………………………………… 10


INVESTIGATIONS.......................................................................................       12


ADDITIONAL OFFICE OF INSPECTOR GENERAL

  ACTIVITY...............................................................................................   13


ECIE AND PCIE ACTIVITY.........................................................................             16


REPORTING REQUIREMENTS.................................................................                     18


TABLE I - QUESTIONED COSTS................................................................                  19


TABLE II - FUNDS PUT TO BETTER USE.................................................                         20


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING

            FOR MORE THAN SIX MONTHS........................................                                21


OIG STRATEGIC PLAN...............................................................................           22


CONTACTING THE OFFICE OF INSPECTOR

   GENERAL..............................................................................................    23





October 1 , 2 0 0 2 – March 3 1 , 2003
                            EXECUTIVE SUMMARY




        This semiannual report to Congress, covering the period October 1, 2002

through March 31, 2003, reflects our efforts to remain in accordance with the

requirements of the Inspector General Act of 1978, as amended. The Executive

Summary provides a summarization, over the past six months, of the major

activities and accomplishments of the Federal Election Commission (FEC), Office

of Inspector General (OIG). The audits and investigations, as well as other

activities described in this report have one common attribute – all are aimed at

improving the accountability and performance of the Federal Election

Commission.



        Due to an inquiry received from Congressman Stephen Horn, Chairman,

Oversight Subcommittee on Government Efficiency, Financial Management and

Intergovernmental Relations, the Office of Inspector General initiated the audit

entitled Audit of the FEC’s Public Disclosure Process – (OIG-02-03).

Congressman Horn requested a complete review of how the Commission carries

out its disclosure responsibilities and how the use of technology and controls to

monitor and remedy reporting discrepancies can be improved.



        The objectives of the audit are to: 1) determine the extent, if any, of

disclosure differences between candidate contributions reported by political

committees and related committee contributions reportedly received by


October 1 , 2 0 0 2 – March 3 1 , 2003                                            Page 1
candidates; and 2) determine whether an adequate process is in place to remedy

reporting discrepancies.



        Because the Commission’s public disclosure system is a multifaceted

process, a substantial amount of meetings have been conducted with management

officials in order to understand the entire disclosure process. During those

meetings, the data coding and entry functions of the disclosure process was

discussed and documented. In addition, a campaign finance computer database

was created which will allow the OIG to perform a detailed analysis of campaign

finance data. An extensive amount of time has been devoted and the OIG staff

remains committed to completing this audit. For more information see the

section entitled Audit, starting on page 7.



        As reported in the previous semiannual report, the audit entitled Agency

Controls for Governing the Process for Procurement of Vendor

Training Services (OIG-00-01) still has four outstanding recommendations.

The audit, released September 2000, was originally conducted to assess

economy, efficiency, and effectiveness of management controls governing the

process for procurement of training services obtained through outside vendors.

The follow-up work conducted included reviewing various documents and

working papers pertaining to the training audit.



        While the OIG concluded that agency controls governing the process for

procurement of vendor training services were not effective or efficient, no specific


October 1 , 2 0 0 2 – March 3 1 , 2003                                         Page 2
instances of fraud or abuse was detected. For a detailed description of the follow-

up work conducted, see the Audit Follow-up section, found on page 10.



        The Inspector General staff has the authority to investigate complaints

and information received from Commission employees, as well as management

officials or others concerning possible violations of FEC programs and operations.

During this reporting period, the OIG received one hotline inquiry. The

individual, who requested anonymity, contacted the OIG’s hotline regarding an

FEC employee. Based on the information provided, the OIG initiated a

preliminary inquiry to determine the validity of the allegations. For more

information, refer to page 12, the section entitled Investigations.



        Significant accomplishments, as well as general activities pertaining to the

Office of Inspector General are summarized below. However, items are described

in greater detail, starting on page 13, the section entitled Additional Office of

Inspector General Activities.



        •	 During the course of this reporting period, the IG reviewed and

            provided comments to the draft version of the PCIE / ECIE FY 2002

            Progress Report to the President. Annually, the President’s Council on

            Integrity and Efficiency (PCIE) and the Executive Council on Integrity

            and Efficiency (ECIE) gathers information for inclusion in the annual

            report to the President. The report highlights the major activities of

            the IG community. In addition to the President, all PCIE / ECIE


October 1 , 2 0 0 2 – March 3 1 , 2003                                         Page 3
            members, and the House and Senate Committees will receive copies of

            the final version.



        •	 The PCIE Inspection and Evaluation Committee contacted the OIG to

            assist with their plans to develop a directory of IG reports on

            government purchase and travel credit cards. The OIG provided the

            committee with a copy of the FEC / OIG report entitled Review of the

            Commission Travel – OIG – 96-02. The directory will provide the

            OIG community, Congress, media, agency managers, and the general

            public with a more efficient and comprehensive way to access the work

            already done on the federal credit card program.



        •	 The OIG received and responded to a questionnaire regarding the

            inspection and evaluation units within federal offices of inspector

            general. The President’s Council on Integrity and Efficiency, along with

            the Health and Human Services / Office of Inspector General initiated

            the survey.




October 1 , 2 0 0 2 – March 3 1 , 2003                                            Page 4
              THE FEDERAL ELECTION COMMISSION



        The Federal Election Commission (FEC) is an independent, regulatory

agency responsible for administering and implementing the Federal Election

Campaign Act (FECA). The FEC is governed by a six member committee who

are appointed for six year terms by the President of the United States, with the

advice and consent of the Senate. The FECA likewise established the positions of

Staff Director and General Counsel, who are appointed by the Commissioners.



        Changes have occurred in the leadership of the Federal Election

Commission during the course of this reporting period. The OIG warmly

welcomes Ellen L. Weintraub as Chair of the Commission. Bradley A. Smith

serves as the Vice Chair and the four remaining Commissioners are – Michael E.

Toner; Danny L. McDonald; David M. Mason; and Scott E. Thomas.




                  OFFICE OF INSPECTOR GENERAL


        The Inspector General Act of 1978 (P.L. 100-504), as amended in 1988,

states that the Inspector General is responsible for: 1) conducting and

supervising audits and investigations relating to the Federal Election

Commission’s programs and operations; 2) detecting and preventing fraud, waste,

October 1 , 2 0 0 2 – March 3 1 , 2003                                      Page 5
and abuse of agency programs and operations while providing leadership and

coordination; 3) recommending policies designed to promote economy, efficiency,

and effectiveness of the establishment; and 4) keep the Commissioners and

Congress fully and currently informed about problems and deficiencies in FEC

agency programs and operations, and the need for corrective action.



        Lynne A. McFarland serves as the Inspector General of the Federal

Election Commission and reports directly to the six Commissioners. The OIG

staff consists of four individuals – in addition to the IG, there are two Auditors

and one Special Assistant. We remain focused upon providing the highest level of

professionalism and quality work related to the detection and prevention of fraud,

waste, abuse, and mismanagement.



        In order to expand its audit capabilities, the Inspector General has

requested additional funds to enable the OIG to contract out for audit assistance.

As of this reporting period, the request has not been granted. The OIG will

continue to petition for these additional funds.




October 1 , 2 0 0 2 – March 3 1 , 2003                                         Page 6
                                         AUDIT


TITLE:                           Audit of the FEC’s Public Disclosure Process


ASSIGNMENT #:                    OIG – 02-03


RELEASE DATE:                    In Progress


PURPOSE:                         During the previous reporting period, the Office of 


Inspector General initiated the audit of the Commission’s Public Disclosure 


process because the OIG received an inquiry from Congressman Stephen Horn, 


Chairman, Oversight Subcommittee on Government Efficiency, Financial 


Management and Intergovernmental Relations. Congressman Horn requested a 


complete review of how the Commission is carrying out its disclosure 


responsibilities and how the Commission can improve its use of technology and its 


controls to monitor and remedy reporting discrepancies.




        The objectives of the audit are to: 1) determine the extent, if any, of

disclosure differences between candidate contributions reported by political

committees and related committee contributions reportedly received by

candidates; and 2) determine whether an adequate process is in place to remedy

reporting discrepancies. Congressman Horn was particularly concerned about

issues raised in two reports created by The Project on Government Oversight

(POGO) Committee. The Office of Inspector General agreed that the first

priority is the disclosure audit and continues to dedicate time and effort to the

progression of the audit. Because the Federal Election Commission’s public


October 1 , 2 0 0 2 – March 3 1 , 2003                                             Page 7
disclosure system is a multifaceted process, a substantial amount of research had

to be obtained in order to understand the entire disclosure process.



        To achieve our audit objectives, the OIG held several meetings with the

Data Systems Development Division to document the data coding and entry

function of the disclosure process. In order to recognize any problems and

provide valuable recommendations, a campaign finance computer database, and a

computer spreadsheet containing campaign finance data was created. The

computer database contains hundreds of thousands of financial transactions

related to federal campaign finance activity and will allow the OIG to perform a

detailed analysis of campaign finance data.



        Additional meetings were held with the manager of the Data Entry and

Coding Branch to discuss the processing of campaign finance information which

was incorporated into process narratives. To describe the agency’s disclosure

process, the IG staff also developed flowcharts. The flowcharts were created to

show the Commission’s entire process for receiving campaign data, which included

the electronic filing process and hard copy filings.



        Additional work associated with the audit also included reviewing and

analyzing past suggestions and recommendations for amendments to the Federal

Election Campaign Act (FECA) as it relates to the comparison of political

committee and candidate data.




October 1 , 2 0 0 2 – March 3 1 , 2003                                       Page 8
        As the audit progressed, the OIG provided Congressman Horn with two

status reports which included the audit objectives, audit work completed and still

in progress, and the planned audit steps. However, neither of the reports

contained any findings or conclusions. The IG staff remains committed to

carrying out this audit and continues to review and summarize documentation to

assist in the completion of the audit.




October 1 , 2 0 0 2 – March 3 1 , 2003                                       Page 9
                                AUDIT FOLLOW-UP



TITLE:                           Agency Controls Governing the Process for
                                 Procurement of Vendor Training Services


ASSIGNMENT #:                    OIG – 00-01

RELEASE DATE:                    September, 2000
 (audit report)

WEBSITE ADDRESS:                 http://www.fec.gov/fecig/training.pdf

PURPOSE:                         The Office of Inspector General conducted this follow-

up to determine if corrective action had been taken to address the four

outstanding recommendations.



        The audit was originally conducted to assess economy, efficiency, and

effectiveness of management controls governing the process for procurement of

training services obtained through outside vendors. The audit, released

September 2000, covered numerous issues as it relates to staff development at

the Commission using outside vendors.



        The follow-up work conducted included reviewing the OIG Audit /

Inspection follow-up log to determine what recommendations were still

outstanding. The working papers for the training audit were also reviewed as well

as management’s actions taken thus far to address the audit findings and

recommendations. Management supplied the OIG with draft procedures


October 1 , 2 0 0 2 – March 3 1 , 2003                                          Page 1 0
associated with the training audit. The OIG reviewed the draft procedures.

However, management was informed that the outstanding recommendations

would not be closed until the procedures are issued in final. The OIG will continue

to monitor the status of the four outstanding recommendations.




October 1 , 2 0 0 2 – March 3 1 , 2003                                     Page 1 1
                                 INVESTIGATIONS




        The Office of Inspector General receives requests to conduct investigations

from many sources. To enable direct and confidential contact with the FEC /

OIG, public complaints or concerns continue to be received through the OIG voice

mail, which also serves as the OIG complaints hotline after hours. The

information received over the hotline is then analyzed to determine if further

inquiry is warranted. During this reporting period, the OIG received one hotline

inquiry. The individual, who requested anonymity, contacted the OIG’s hotline

regarding an FEC employee. Based on the information provided, the OIG

launched a preliminary inquiry to determine the validity of the allegations.



        In a previous semiannual report, the OIG reported receiving three

requests asking that an investigation be conducted. One investigation was opened

and is still in the process of being completed. The additional cases have not been

activated due to lack staff availability. The OIG plans to evaluate the inactive

cases to determine whether they warrant an investigation.




October 1 , 2 0 0 2 – March 3 1 , 2003                                         Page 1 2
     ADDITIONAL OFFICE OF INSPECTOR GENERAL
                    ACTIVITY



        All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and comments,

when appropriate, on all legislation provided by the PCIE / ECIE Legislative

Committee. In addition, the Inspector General routinely reads all Commission

agenda items and attends Finance Committee meetings.



        •	 On an annual basis, the President’s Council on Integrity and Efficiency

            and the Executive Council on Integrity and Efficiency gathers

            information for inclusion in the annual report to the President which

            outlines the major accomplishments of the IG Community. During the

            course of this reporting period, the IG reviewed and provided

            comments to the draft version of the PCIE / ECIE FY 2002 Progress

            Report to the President. Once the report is completed and released,

            the President, and the appropriate House and Senate Committees will

            be given copies.



        •	 On several occasions, the Office of Inspector General provides

            assistance to other OIG’s or PCIE / ECIE committees with projects that

            could benefit the IG community. During this reporting period, the


October 1 , 2 0 0 2 – March 3 1 , 2003                                       Page 1 3
            PCIE Inspection and Evaluation Committee contacted the Office of

            Inspector General and requested any IG reports that dealt with

            government purchase and travel cards. The PCIE Inspection

            Committee is in the process of developing a directory that will provide

            the OIG community, Congress, media, agency managers, and the

            general public with a more efficient and comprehensive way to access

            work previously done on the federal credit card program. A copy of the

            OIG report entitled Review of the Commission Travel – OIG-96-02

            was forwarded to the PCIE Inspection and Evaluation Committee.



        •	 The OIG received and responded to a questionnaire regarding the

            inspection and evaluation units within federal offices of inspector

            general. The President’s Council on Integrity and Efficiency, along with

            the Health and Human Services / Office of Inspector General initiated

            the survey. The OIG responded to the questionnaire by providing a

            brief statement indicating the FEC OIG has neither a large staff nor a

            budget dedicated to inspections.



        •	 The OIG also responded to a questionnaire in which we provided

            feedback on the Inspector’s General Auditor Training Institute

            (IGATI) financial audit courses. IGATI developed the questionnaire to

            aid in determining how they could better serve the training needs of the

            IG Community with respect to financial statement audit requirements.




October 1 , 2 0 0 2 – March 3 1 , 2003                                            Page 1 4
        •	 The OIG honored another request during this reporting period. The

            Department of Commerce OIG needed assistance in assembling a

            pricing matrix that compares what each IG office spends on the

            preparation of their Semiannual Report to Congress. The OIG

            responded to the inquiry by providing how the OIG produces and

            distributes the semiannual reports. Our reports are produced in-house

            and distributed to the members of the PCIE and ECIE, the President,

            and various members of Congress. The semiannual reports are also

            available via the FEC website at www.fec.gov/fecig.htm.



        •	 The OIG provided the FEC Information Division with a brief synopsis

            of our most significant activities for calendar year 2002. The

            information forwarded included new activities and major changes to our

            operations and their beneficial effects, which will be used to assist the

            Information Division in preparing for the FEC 2002 Annual Report.




October 1 , 2 0 0 2 – March 3 1 , 2003                                          Page 1 5
                          ECIE AND PCIE ACTIVITY


        The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics, the

Office of Special Counsel, the Federal Bureau of Investigation and the Office of

Management and Budget.



        The Commission’s Inspector General is a member of the ECIE and has

provided input into a number of initiatives proposed by the Council and its

associated activities. The ECIE serves as a forum for the exchange of views for

the inspector general community. The ECIE identifies, reviews, and discusses

issues that are of interest to the IG community. For the period October 1, 2002

through March 31, 2003, the Inspector General (or staff) attended the following

training, programs, seminars and / or conferences:



        •   ECIE - Monthly Meetings

        •   ECIE / PCIE – 2003 Joint Conference: Planning for the Future

        •   PCIE / ECIE – Awards Ceremony

        •	 PCIE – Government Performance Results Act (GPRA) Roundtable
           Panel Discussion

        •	 U.S. Department of Transportation – Executive Briefing on the OIG
           Knowledge Management System (KMS)




October 1 , 2 0 0 2 – March 3 1 , 2003                                        Page 1 6
        •	 Inspector General Criminal Investigator Academy – I.G. Investigator:
           Basic Non-Criminal Investigator Training Program


        •	 Federal Audit Executive Council - Roundtable Discussion: The OMB’s
           Performance and Financial Management Super Circular


        •	 Joint Financial Management Improvement Program (JFMIP) – 32nd
           Annual Financial Management Conference


        •	 Association of Directors of Investigation (ADI) Conference – Working
           Together to Assure Accountability, Security and Justice

        •	 Financial Statement Audit Networking Meeting – issues discussed
           included the Sarbanes-Oxley Act of 2002; status of OIG financial
           Audits of FY 2002; Revised Government Auditing Standards

        •	 Financial Statement Audit Networking Meeting – issues relating to
           auditing agencies financial statements was discussed

        •	 Federal Trade Commission – Accountability of Tax Dollars Act of
           2002

        •	 Human Resources / Government Performance and Results Act
           (GPRA) Roundtable Discussion – How investigative organizations can
           successfully measure and promote efficient and effective performance

        •   Federal Election Commission – Administrative Liaison Meetings




October 1 , 2 0 0 2 – March 3 1 , 2003                                    Page 1 7
IG ACT                   REPORTING REQUIREMENTS                                        PAGE




Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)          Review of Legislation---------------------------------------------13

Section 5(a)(1)	         Significant Problems, Abuses, and
                         Deficiencies-----------------------------------------------------None

Section 5(a)(2)	         Recommendations with Respect to
                         Significant Problems, Abuses, and
                         Deficiencies-----------------------------------------------------None

Section 5(a)(3)	         Recommendations Included in Previous
                         Reports on Which Corrective Action Has
                         Not Been Completed---------------------------------------------21

Section 5(a)(4)	         Matters Referred to Prosecutive
                         Authorities-----------------------------------------------------None

Section 5(a)(5)	         Summary of Instances Where Information
                         was Refused---------------------------------------------------None

Section 5(a)(7)          Summary of Significant Reports----------------------------------7

Section 5(a)(8)          Questioned and Unsupported Costs-----------------------------19

Section 5(a)(9)	         Recommendations that Funds be put
                         to Better Use------------------------------------------------------20

Section 5(a)(10)	        Summary of Audit Reports issued before
                         the start of the Reporting Period for which
                         no Management Decision has been made---------------------N/A

Section 5(a)(11)         Significant revised Management Decisions--------------------N/A

Section 5(a)(12)	        Management Decisions with which the
                         Inspector General is in Disagreement------------------------None




October 1 , 2 0 0 2 – March 3 1 , 2003                                                Page 1 8
                                          TABLE I

                   INSPECTOR GENERAL ISSUED REPORTS
                        WITH QUESTIONED COSTS

                                                    DOLLAR VALUE (in thousands )

                                                    QUESTIONED    UNSUPPORTED
                                         NUMBER        COSTS          COSTS



A. For which no management                0              0              [0]
  decision has been made by
  commencement of the reporting
  period


B. Which were issued during the           0              0              [0]
   reporting period

        Sub-Totals (A&B)                  0              0              [0]


C. 	 For which a management               0              0              [0]
    decision was made d uring
    the reporting period

        (i) Dollar value of disallowed    0              0              [0]
            costs

        (ii) Dollar value of costs        0              0              [0]
             not disallowed


D. For which no management                0              0              [0]
  decision has been m ade by the
  end of the reporting period


E. Reports for which no management        0              0              [0]
   decision was made within
   six months of issuance




October 1 , 2 0 0 2 – March 3 1 , 2003                                    Page 1 9
                                          TABLE II

           INSPECTOR GENERAL ISSUED REPORTS WITH
       RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                              NUMBER   DOLLAR VALUE
                                                        (in thousands )



A.	     For which no management                0              0
        decision has been made by
        the commencement of the
        reporting period

B. 	    Which were issued during               0              0
        the reporting period

C.	     For which a management                 0              0
        decision was made during
        the reporting period

        (i) 	    dollar value of               0              0
                 recommendations
                 were agreed to by
                 management

                 based on proposed             0              0
                 management action

                 based on proposed             0              0
                 legislative action

        (ii) 	   dollar value of               0              0
                 recommendations
                 that were not agreed
                 to by management

D. 	    For which no management                0              0
        decision has been made by
        the end of the reporting period

E. 	    Reports for which no                   0              0
        management decision
        was made within six months
        of issuance




October 1 , 2 0 0 2 – March 3 1 , 2003                               Page 2 0
                                          TABLE III

    SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
         OUTSTANDING FOR MORE THAN SIX MONTHS



                                                       Recommendations


                                 Report       Issue
 Report Title                    Number       Date    Number Closed   Open

Agency Controls                   00-01       09/00     7       3         4

Governing the Process

for Procurement of Vendor

Training Services





October 1 , 2 0 0 2 – March 3 1 , 2003                                Page 2 1 

                                                                        FEC / OIG Strategic Plan
                                                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                           processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                           the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                           resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                         diverse and motivated employees.
 positive change.                                            Objective A: Maintain a dynamic strategic
                                                             planning process.                                              Strategy:
                                                                                                                            - develop and implement a comprehensive recruiting program
 Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
 - establish common OIG standards for communicating          Strategy:
                                                                                                                            abilities, and expertise necessary to make meaningful
 results;                                                    - periodically review and update the strategic plan to
                                                                                                                            contributions to the OIG;
 - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                            - assess employee satisfaction and develop strategies to address
 - solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                            employee concerns;
 comment;                                                    develop short and long term plans to address them.
                                                                                                                            - identify reasons for staff departures and develop plans to foster
 - comply with applicable statutory guidelines and                                                                          greater staff retention; and,
 standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.                                                                                force.

 Objective B: Address priority issues and
 concerns of the Commission, Congress,
                                                             Objective B: Plan and conduct cost-
 and Management.
                                                             effective work that address critical issues                    Objective B: Provide training and developmental
 Strategy:     Perform work that supports;                   and results in positive change.                                opportunities to employees.
 - Federal Election Commission and Congressional
 priorities;                                                 Strategy:                                                      Strategy:
 - National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
 - Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                             - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
 Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
 - managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
 - resource allocation in relation to policy objectives;     and,                                                           requirements are met.
 - delivery of client service;                               - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,                    cost-effective
 - automation and communication.



                                                             Objective C: Identify customer needs and
                                                             provide products and services to meet
 Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                    when possible, performance that contributes to
 assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
 positive change.                                            - establish new customer feed back mechanisms;
                                                             - consider and evaluate customers feedback when
                                                                                                                            Strategy:
                                                             planning and developing products and services;
 Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                            - develop and articulate expectations for each employee's
 - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                             briefing and testimony;
 timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                             - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                             outreach and through use of e-mail; and,
 results have been achieved.                                                                                                exceptional employee performance.
                                                             - receive, evaluate, and respond, as appropriate, to
                                                             information received through the OIG hotline and other
                                                             sources.


 Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
 consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                             and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.                                                    procedures.                                                    effective communication.
 Strategy:                                                   Strategy:
 - establish professional communication and interaction                                                                     Strategy:
                                                             - ensure that IG follow-up procedures are followed and that
 with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                             management is aware of their role in the process; and,
 - incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                             - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                             maintenance and communications.
 options.


                                                             Objective E: Establish a positive and
                                                             productive working environment.

                                                             Strategy:
                                                             - reengineer or streamline OIG procedures to achieve the
                                                             most effective use of resources; and,
                                                             - ensure that necessary technologies, evolving and
                                                             otherwise, are made available to staff as needed.



 Performance Measures:Determine the
 timeliness and quality of products and                      Performance Measures:An annual audit                           Performance Measures:All employees meet
 services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
 with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
 the report issue date.




October 1, 2002 – March 31, 2003                                                                                                                                         Page 22
   CONTACTING THE OFFICE OF INSPECTOR GENERAL



The success of the OIG mission to prevent fraud, waste, and abuse depends on
the cooperation of FEC employees (and the public). There are several ways to
report questionable activity.




        Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
        anonymous message can be left 24 hours a day / 7 days a week.




        Write or visit us - we are located at:	    Federal Election Commission
                                                   Office of Inspector General
                                                   999 E Street, N.W., Suite 940
                                                   Washington, DC 20463

                            Mail is opened by OIG staff members only.




                          You can also contact us by e-mail at: oig@fec.gov.
                          Our Website address: http://www.fec.gov/fecig.htm.


Individuals may be subject to disciplinary or criminal action for knowingly making
a false complaint or providing false information.


October 1 , 2 0 0 2 – March 3 1 , 2003                                     Page 2 3
